No. 20In The
SUPREME COURT OF THE UNITED STATES
October Term 2020
_________________________________________________________________
Ihab Masalmani,
Petitioner,
v.
State of Michigan,
Respondent.
_________________________________________________________________
On Petition for Writ of Certiorari to the
Supreme Court of the State of Michigan

APPENDIX
_________________________________________________________________

Tina N. Olson*
Erin Van Campen
Assistant Defenders
State Appellate Defender Office
200 North Washington, Suite 250
Lansing, MI 48913
(313) 256-9833
tolson@Sado.org
*Counsel of Record

APPENDICES
A

People v. Masalmani, 943 N.W.2d 359 (Mich. 2020) ....................................... 1a

B

People v. Masalmani, 944 N.W.2d 92 (Mich. 2020) ......................................... 8a

C

People v. Masalmani, unpublished opinion of the Michigan Court of
Appeals issued March 19, 2013 (Docket No. 301376) ...................................... 9a

D

People v. Masalmani, Macomb County Circuit Court opinion and order
issued January 6, 2015 (Docket No. 2009-5244-FC) ..................................... 16a

E

People v. Masalmani, unpublished opinion of the Michigan Court of
Appeals issued September 22, 2016 (Docket No. 325662)............................. 25a

F

People v. Masalmani, 924 N.W.2d 585 (Mich. 2019) ..................................... 33a

Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

May 29, 2020

Chief Justice

David F. Viviano,

154773

Chief Justice Pro Tem

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

SC: 154773
COA: 325662
Macomb CC: 2009-005244-FC

IHAB MASALMANI,
Defendant-Appellant.
_____________________________________/
On order of the Court, leave to appeal having been granted and the briefs and oral
arguments of the parties having been considered by the Court, we VACATE our order of
April 5, 2019. The application for leave to appeal the September 22, 2016 judgment of
the Court of Appeals is DENIED, because we are no longer persuaded that the questions
presented should be reviewed by this Court.
MCCORMACK, C.J. (dissenting).
I respectfully dissent from the Court’s determination that leave to appeal was
improvidently granted in this case. The trial court’s sentencing decision reveals the
critical flaw in this Court’s opinion in People v Skinner, 502 Mich 89 (2018): by reading
the Sixth Amendment out of MCL 769.25 we have permitted life-without-parole
sentences that violate the Eighth Amendment. I would overrule Skinner. Short of that, I
would vacate the decision below and remand to the trial court for resentencing, because
the trial court abused its discretion when it treated the mitigating factors as aggravating
factors to justify its sentence of life imprisonment without the possibility of parole.
The defendant, Ihab Masalmani, was 17 years old when he and 16-year-old Robert
Taylor committed the offense for which Masalmani was sentenced to life without parole
(LWOP). The two juveniles abducted a 21-year-old man in the parking lot of a fast-food
restaurant and took the victim to a vacant home, where Masalmani shot and killed him.
Masalmani was charged with multiple felonies, including first-degree felony
murder. 1 Masalmani was convicted, and the trial court imposed the then statutorily
mandated sentence of LWOP for the murder conviction. At Masalmani’s original
1

At the time of his crimes, Michigan law treated all 17-year-olds charged with crimes as
adults, regardless of their offense. See MCL 712A.1(1)(i), amended effective October 1,
2021, by 2019 PA 109.
APPENDIX A
1a

Justices

2
sentencing proceeding the trial court did not consider (and, given the date of his
conviction and sentencing, could not have considered) whether Masalmani was one of the
“the rare juvenile offender[s] whose crime reflects irreparable corruption” such that his
LWOP sentence was constitutional under the Eighth Amendment. Miller v Alabama, 567
US 460, 479-480 (2012) (quotation marks and citations omitted).
Miller was decided while Masalmani’s appeal of right was pending. The Court of
Appeals affirmed Masalmani’s convictions but, in light of Miller’s prohibition on
mandatory LWOP sentences for juvenile (homicide) 2 offenders, the panel vacated his
murder sentence and remanded to the trial court for resentencing. People v Masalmani,
unpublished per curiam opinion of the Court of Appeals, issued March 19, 2013 (Docket
Nos. 301376 through 301378), p 7.
On remand, the trial court resentenced Masalmani pursuant to MCL 769.25, 3 our
state’s legislative response to Miller. The trial court heard expert and lay witness
testimony. The former included testimony on adolescent brain development—the same
science that the Supreme Court discussed in Miller to explain why juvenile offenders’
“transient rashness, proclivity for risk, and inability to assess consequences” reduces their
culpability and “diminish[es] the penological justifications for imposing the harshest
sentences . . . even when they commit terrible crimes.” Miller, 567 US at 472. The latter
included testimony about Masalmani’s behavior while incarcerated and his family
background and upbringing, including descriptions of the physical and sexual abuse he
experienced as a child.
At the conclusion of the hearing, the trial court again sentenced Masalmani to
LWOP. Addressing the “Miller factors” individually, 4 the trial court concluded that all of
2

See Graham v Florida, 560 US 48 (2010) (holding that the Eighth Amendment
prohibits the imposition of a LWOP sentence on a juvenile offender for a nonhomicide
offense).
3

Under MCL 769.25, a trial court must conduct a “Miller hearing” in any case in which
the prosecutor timely moves for a sentence of LWOP for a defendant who, while less
than 18 years of age, commits a crime the penalty for which is mandatory LWOP (but for
the defendant’s youthfulness). At that hearing, the trial court must “consider the factors
listed in [Miller] . . . and may consider any other criteria relevant to its decision,
including the individual’s record while incarcerated.” MCL 769.25(6). The court must
“specify on the record the aggravating and mitigating circumstances considered by the
court and the court’s reasons supporting the sentence imposed.” MCL 769.25(7).
4

As Miller explained, a sentencing scheme that mandates LWOP for juvenile offenders
violates the Eighth Amendment because such a scheme “mak[es] youth (and all that
accompanies it) irrelevant to imposition of that harshest prison sentence” and “poses too
great a risk of disproportionate punishment.” Miller, 567 US at 479. In so holding,

2a

3
the factors save one (Masalmani’s family and home environment) weighed against a
term-of-years sentence and favored life without the possibility of parole. The Court of
Appeals affirmed the sentence, finding no error or abuse of discretion in the trial court’s
sentencing decision. People v Masalmani, unpublished per curiam opinion of the Court
of Appeals, issued September 22, 2016 (Docket No. 325662).
We issued our decision in Skinner while Masalmani’s application for leave to
appeal was pending in this Court. Skinner raised a constitutional challenge to the
sentencing process set forth in MCL 769.25; specifically, whether this process violates
the Sixth Amendment right to have (almost) any fact that increases a defendant’s
punishment beyond the prescribed statutory maximum submitted to a jury and proven
beyond a reasonable doubt. See Apprendi v New Jersey, 530 US 466 (2000). I thought
the answer was yes. That is, the “most natural reading [of MCL 769.25] requires a trial
court to make factual findings beyond those found by the jury before it can impose an
LWOP sentence on a juvenile,” because the statute requires a statement of aggravated
and mitigating circumstances considered by the sentencing court, as well as reasons
supporting the court’s sentencing decision, before the court may impose life
imprisonment without the possibility of parole. Skinner, 502 Mich at 152-153
(MCCORMACK, J., dissenting).
But my view did not prevail. This Court avoided the Sixth Amendment issue and
held that MCL 769.25 does not require a trial court to make any additional findings
(beyond the offender’s guilt) before sentencing a juvenile offender to LWOP. Skinner,
502 Mich at 117-119 (opinion of the Court). That is, there is no judicial fact-finding
problem, because there is no fact-finding requirement. The Court reasoned that such a
result is consistent with Miller (and Montgomery v Louisiana, 577 US ___; 136 S Ct 718
(2016)), 5 because those decisions do not impose a presumption against LWOP for
juvenile offenders. Skinner, 502 Mich at 131. Instead, the statute “merely requires” the
trial court to consider the Miller factors and explain its decision. Id. at 114-117; see
Miller outlined several mitigating factors unique to juvenile offenders that are given no
weight in a mandatory sentencing regime. These “Miller factors” include: “chronological
age and its hallmark features,” including “immaturity, impetuosity, and failure to
appreciate risks and consequences”; the juvenile’s family and home environment; the
circumstances of the offense, including susceptibility to familial and peer pressures; the
“incompetencies associated with youth,” including an inability to deal with police
officers, prosecutors, or defense counsel; and reduced culpability due to age and capacity
for change. Miller, 567 US at 477-478; see also Skinner, 502 Mich at 113 (stating that
“[MCL 769.25] requires the court to conduct a hearing to consider the Miller factors”).
5

Montgomery held that Miller’s prohibition on mandatory LWOP for juvenile offenders
is a substantive rule that must be applied retroactively to cases in which direct appellate
review ended before Miller was decided.

3a

4
MCL 769.25(6) and (7). If this is done, the trial court’s sentencing decision will not be
disturbed on appeal absent an abuse of discretion. Skinner, 502 Mich at 131-137.
I remain unconvinced that this approach taken avoids constitutional infirmity. 6
But my disagreement with the Court’s constitutional holdings aside, a trial court’s
decision to sentence a juvenile offender to LWOP is subject to abuse-of-discretion
review. See Skinner, 502 Mich at 131-137. In my view the trial court abused its
discretion here.
“It is undisputed that all of [the Miller] factors are mitigating factors.” Skinner,
502 Mich at 115, citing Miller, 567 US at 489. But the trial court’s treatment of these
factors shows that the court did not treat them as mitigating. That is, the court did not
consider them for what they are—circumstances and features common to juvenile
offenders generally, consideration of which would lead to reasons not to impose the
maximum sentence allowed by our federal constitution. See note 4 of this statement. For
example, in weighing Masalmani’s “chronological age and its hallmark characteristics,”
Miller, 567 US at 477, the trial court concluded that “this factor favors imposing [a]
sentence of life without the possibility of parole.” (Emphasis added). This was not
simply unartful phrasing; that is, the court was not finding the absence of a general
feature of youth to conclude that Masalmani’s crime was not mitigated. Rather, the court
explained that had Masalmani been several months older at the time of his crime, he
would not have benefited from Miller’s prohibition on mandatory LWOP sentencing.
The court acknowledged that the scientific evidence presented at the Miller hearing
“established that the prefrontal cortex continues to develop into one’s mid-20s,” but
proceeded to disregard this evidence because “the Court is not free to take this
developmental disconnect into consideration when a criminal defendant is over 18.” This
was a clear abuse of discretion. Miller did not suggest that 18-year-olds are, as a class,
equipped with the decision-making faculties that 17-year-olds lack. Nor did Miller
suggest that a sentencer should disregard the expanding body of scientific knowledge on
6

As I explained, I think the majority’s approach “renders meaningless the individualized
sentencing required by Miller by allowing LWOP effectively to serve as the default
sentence as long as the prosecutor files [a] motion [seeking a sentence of LWOP].”
Skinner, 502 Mich at 148 (MCCORMACK, J., dissenting). A sentencing scheme that does
not begin with a presumption against LWOP for juvenile offenders violates the Eighth
Amendment, at least under current United States Supreme Court jurisprudence. Id. at
150. And reading the statute to require no fact-finding requirement at all before a LWOP
sentence may be imposed violates Miller and Montgomery. See id. at 145-148. The
Supreme Court may resolve these questions next term. See Jones v State, 285 So 3d 626
(Miss Ct App, 2017), cert gtd 250 So 3d 1269 (Miss, 2018), cert dis by unpublished order
of the Mississippi Supreme Court, entered November 27, 2018 (Docket No. 2015-CT00899-SCT), cert gtd ___ US ___; 140 S Ct 1293 (2020).

4a

5
adolescent brain development merely because an older offender who, although
developmentally similar, may be subject to mandatory LWOP sentencing. To the extent
Miller drew a bright line at the legal age of majority, the Court was not suggesting that
the adolescent development period ends at the age of 18. See Roper v Simmons, 543 US
551, 574 (2005) (“Drawing the line at 18 years of age is subject, of course, to the
objections always raised against categorical rules. The qualities that distinguish juveniles
from adults do not disappear when an individual turns 18.”) (emphasis added). The
testimony in this case, which the trial court appeared to accept, suggested that 18-yearold offenders too should not be sentenced as adults, for the reasons explained in Miller.
That is, while the law does not require that categorically, the facts might well in most
cases. The court’s treatment of this factor invoked the scientific evidence for the precise
opposite of what it showed. In doing so, the court upended Miller’s foundational
principle—that the “imposition of a State’s most severe penalties on juvenile offenders
cannot proceed as though they were not children.” Miller, 567 US at 474. 7
The trial court’s treatment of the other Miller factors (with the exception of
Masalmani’s family and home environment, which the court acknowledged was
mitigating) did not rehabilitate the court’s sentencing decision. The court’s evaluation of
the “incompetencies associated with youth,” Miller, 567 US at 477, is short enough to
quote in full: “[T]here was no evidence that the incapacities of youth caused defendant to
be unable to participate in his defense. Nor is there any evidence that he implicated
himself due to youthful incapacities. As such, this factor favors sentencing defendant to
[LWOP].” Here again, I believe the trial court treated as aggravating circumstances
factors that are exclusively mitigating (or, at most, neutral). Miller did not suggest that a
juvenile offender is more deserving of LWOP if the offender is better able to participate
in their defense; Miller discussed this factor in explaining how features of our criminal
system may lead to disproportionate outcomes between juveniles and adults. See Miller,
567 US at 477-478 (explaining that a juvenile offender “might have been charged and
convicted of a lesser offense if not for incompetencies associated with youth—for

7

The trial court provided similar reasoning when it resentenced codefendant Taylor.
Like Masalmani, Taylor was convicted of first-degree felony murder (in a separate trial),
received resentencing relief under Miller in his appeal of right, and was resentenced to
LWOP. Addressing this factor in Taylor’s case, the trial court stated:
Defendant [Taylor] was a mere 14 months shy of his 18th birthday at the
time of his offense, suggesting that this developmental disconnect between
his prefrontal cortex and his limbic system was not much more pronounced
than that of an 18 year old. In short, while this factor does not weigh as
heavily against [Taylor] as it did against [Masalmani], the Court is not
convinced that this factor mitigates against a sentence of life without the
possibility of parole.

5a

6
example, his inability to deal with police officers or prosecutors (including on a plea
agreement) or his incapacity to assist his own attorneys”).
Most troublesome is the trial court’s treatment of Masalmani’s potential for
rehabilitation. See Miller, 567 US at 478 (stating that mandatory LWOP “disregards the
possibility of rehabilitation even when the circumstances most suggest it”). After
acknowledging that Masalmani’s troubled upbringing was a mitigating consideration, the
court cited this same upbringing to conclude that Masalmani’s potential for rehabilitation
was “minimal.” In so finding, the court did not assert that Masalmani was “irreparably
corrupt,” but that his rehabilitation would require the type of professional treatment that
“he is very unlikely to receive in prison.” In other words, the trial court cited the state’s
inability to provide Masalmani with rehabilitative treatment—a fact completely out of
Masalmani’s control—as a justification for his lifelong incarceration. The trial court did
not evaluate Masalmani’s potential for rehabilitation but rather the state’s inability to
facilitate such rehabilitation. 8
The “circumstances of the homicide offense,” Miller, 567 US at 477, weighed
heavily in the trial court’s decision to impose LWOP, and there is no doubt that
Masalmani’s crime was vicious. But the individualized inquiry that Miller demands, and
the sentencing decision that results from it, will always and only occur where a juvenile
stands convicted of a homicide. See Graham v Florida, 560 US 48 (2010). Our review
of the trial court’s work must, therefore, always go beyond the trial court’s evaluation of
this factor. As the Supreme Court explained in Miller, “[t]hat Miller deserved severe
punishment for killing [his victim] is beyond question. But once again, a sentencer
needed to examine all these circumstances before concluding that life without any
possibility of parole was the appropriate penalty.” Id. at 479.
Concluding there was no abuse of discretion in this case underscores my concern
that our decision in Skinner allows for LWOP sentences that violate the Eighth
Amendment. Skinner, 502 Mich at 148 (MCCORMACK, J., dissenting) (“I cannot see how
Miller’s dictates are satisfied by the hollow formality to which the majority’s holding
would reduce the hearing mandated by MCL 769.25(6).”). Abuse of discretion is a

8

Or rather, the court’s perception of the state’s inability. The trial court did not identify
any evidence in the record to support its suspicion that Masalmani would be “very
unlikely” to receive rehabilitative services while incarcerated. And evaluating the
potential for rehabilitative services in our prison system in the decades to come—time
that Masalmani would remain incarcerated had the court declined to impose LWOP—is,
at most, an exercise in educated guesswork.

6a

7
deferential standard. But even so, the trial court’s sentencing decision must be a
reasonable and principled outcome based on “case-specific detailed factual
circumstances.” Skinner, 502 Mich at 134 (opinion of the Court) (quotation marks and
citations omitted). That did not occur here.
For these reasons, I respectfully dissent.
BERNSTEIN and CAVANAGH, JJ., join the statement of MCCORMACK, C.J.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
May 29, 2020
t0526

Clerk

7a

Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

July 15, 2020

Chief Justice

David F. Viviano,

154773 (92)

Chief Justice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

SC: 154773
COA: 325662
Macomb CC: 2009-005244-FC

IHAB MASALMANI,
Defendant-Appellant.
_____________________________________/
On order of the Court, the motion for reconsideration of this Court’s May 29, 2020
order is considered, and it is DENIED, because we are not persuaded that reconsideration
of our previous order is warranted. MCR 7.311(G).

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
July 15, 2020
p0715

APPENDIX B
8a

Clerk

Justices

STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
March 19, 2013

Plaintiff-Appellee,
v

No. 301376
Macomb Circuit Court
LC No. 09-004832-FC

IHAB MASALMANI,
Defendant-Appellant.

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

No. 301377
Macomb Circuit Court
LC No. 09-005144-FC

IHAB MASALMANI,
Defendant-Appellant.

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

No. 301378
Macomb Circuit Court
LC No. 09-005244-FC

IHAB MASALMANI,
Defendant-Appellant.

Before: JANSEN, P.J., and FITZGERALD and K. F. KELLY, JJ.
PER CURIAM.
A jury convicted defendant of 18 total charges, arising from three separate cases that
were consolidated for trial. In LC No. 09-004832-FC, the jury convicted defendant of two
counts of armed robbery, MCL 750.529, kidnapping, MCL 750.349, bank robbery, MCL
-1APPENDIX C
9a

750.531a, and four counts of possession of a firearm during the commission of a felony, MCL
750.227b. The trial court sentenced defendant to concurrent prison terms of 15 to 50 years each
for the bank robbery, armed robbery, and kidnapping convictions, to be served consecutive to
four concurrent two-year terms of imprisonment for the felony-firearm convictions. In LC No.
09-005144-FC, the jury convicted defendant of carjacking, MCL 750.529a, receiving or
concealing firearms, MCL 750.535b, and felony-firearm. The trial court sentenced defendant to
concurrent prison terms of 15 to 50 years for the carjacking conviction, and 5 to 10 years for the
receiving or concealing conviction, to be served consecutive to a two-year term of imprisonment
for the felony-firearm conviction. In LC No. 09-005244-FC, the jury convicted defendant of
first-degree felony murder, MCL 750.316(1)(b), carjacking, conspiracy to commit carjacking,
MCL 750.529a and MCL 750.529, kidnapping, conspiracy to commit kidnapping, MCL 750.349
and MCL 750.529, larceny from a person, MCL 750.357, and felony-firearm. The trial court
sentenced defendant to concurrent prison terms of mandatory life without parole for the murder
conviction, 25 to 50 years each for the carjacking, kidnapping, and conspiracy convictions, and 5
to 10 years for the larceny conviction, to be served consecutive to a two-year term of
imprisonment for the felony-firearm conviction. Defendant appeals as of right in all three cases,
and the appeals have been consolidated for this Court’s consideration. We affirm defendant’s
convictions in all three cases, but vacate his mandatory life sentence for first-degree felony
murder in Docket No. 301378 and remand for resentencing on that offense.
Defendant’s convictions arise from three criminal episodes that occurred during a threeday crime spree from August 9, 2009, until defendant’s arrest on August 11, 2009. The
prosecutor’s theory was that on the afternoon of August 9, 2009, defendant, acting in concert
with codefendant Robert Taylor, both of whom were juveniles, carjacked and abducted Matt
Landry from outside an Eastpointe restaurant, held Landry captive for several hours, stole his
money by using his ATM card, and later murdered him by shooting him in the head and leaving
his body at an abandoned burnt-out house in a drug-infested neighborhood. The next day,
defendant, using Landry’s vehicle and now acting alone, robbed a Flagstar Bank, during which
he pointed a gun and threatened several people inside the bank, temporarily abducted customer
Sarah Maynard, and stole money from both the bank and a customer before fleeing in Landry’s
vehicle. Defendant continued his crime spree on August 11, 2009, by carjacking David
Hassroune at gunpoint in a Walmart parking lot before being arrested. Surveillance videotape
from several locations depicted defendant committing many of the offenses. At trial, the defense
focused on contesting the charges that defendant shot Landry and kidnapped Maynard.
I. SUFFICIENCY OF THE EVIDENCE
Defendant argues that his conviction for first-degree felony murder must be vacated
because the evidence failed to establish that he was the person who shot and killed Landry and
also failed to establish the necessary element of malice beyond a reasonable doubt. When
ascertaining whether sufficient evidence was presented at trial to support a conviction, we must
view the evidence in a light most favorable to the prosecution and determine whether a rational
trier of fact could find that the essential elements of the crime were proven beyond a reasonable
doubt. People v Wolfe, 440 Mich 508, 515; 489 NW2d 748 (1992), amended 441 Mich 1201
(1992). “[A] reviewing court is required to draw all reasonable inferences and make credibility
choices in support of the jury verdict.” People v Nowack, 462 Mich 392, 400; 614 NW2d 78
(2000).
-210a

A. IDENTITY
First-degree felony murder requires proof that the defendant killed the victim with malice
while committing, attempting to commit, or assisting in the commission of a felony specifically
enumerated in MCL 750.316(1)(b). People v Gayheart, 285 Mich App 202, 210; 776 NW2d 330
(2009). Identity is also an essential element in a criminal prosecution, People v Oliphant, 399
Mich 472, 489; 250 NW2d 443 (1976), and the prosecution must prove the identity of the
defendant as the perpetrator of a charged offense beyond a reasonable doubt. People v Kern, 6
Mich App 406, 409-410; 149 NW2d 216 (1967).
Defendant asserts that the prosecution failed to present credible evidence that he was the
person who killed Landry. We disagree. Although there were no witnesses to the actual
shooting, defendant’s identity as the killer properly could be established through circumstantial
evidence. The deferential standard of review “is the same whether the evidence is direct or
circumstantial,” and it is well established that “circumstantial evidence and reasonable inferences
arising from that evidence can constitute satisfactory proof of the elements of a crime.” Nowack,
462 Mich at 400 (citation omitted); see also People v Davis, 241 Mich App 697, 700; 617 NW2d
381 (2000). The credibility of identification testimony is for the trier of fact to resolve and this
Court will not resolve it anew. Nowack, 462 Mich at 400.
The defense did not dispute the evidence that defendant carjacked and kidnapped Landry
outside a Quiznos restaurant in Eastpointe on the afternoon of August 9, 2009. Two witnesses,
Lawrence Wata and Carol Santangelo, observed defendant and codefendant Taylor acting
aggressively toward Landry during the initial contact. While Taylor, who Wata believed was
armed with a weapon, acted as a lookout, defendant grabbed Landry by the neck, dragged him to
the rear of his vehicle, and attempted to push Landry in the trunk. Defendant then forced Landry
back inside the car, punched Landry, who had his hands up, and signaled for Taylor to join them.
Defendant drove away in Landry’s vehicle with both Landry and Taylor inside. Evidence was
presented that over the next several hours defendant continued to drive Landry’s vehicle, hold
Landry captive, and steal money from Landry’s bank account.
About an hour after defendant abducted Landry, defendant was captured on videotape
using Landry’s ATM card at a gas station on the east side of Detroit, making three separate
withdrawals, totaling more than $300. Soon thereafter, in a Detroit neighborhood near the gas
station, a resident viewed defendant and another male standing behind Landry’s Honda and
looking into the trunk. There was no sign of Landry. However, a cigarette butt later found in the
truck revealed the presence of Landry’s DNA. Defendant was thereafter captured on another
Detroit area gas station security video, still driving Landry’s green Honda, with Taylor and two
women, and no sighting of Landry. Defendant was also captured on an Eastland mall clothing
store’s videotape, shopping with two other men and spending a large sum of money.
Seven hours after Landry was abducted, defendant and Taylor drove Landry’s Honda to a
heavily drug-infested area in Detroit where they parked outside a vacant, burnt-out drug house at
14703 Maddelein. According to Frederick Singleton, Taylor was driving the vehicle and
defendant was in the back seat with Landry. Through Singleton, defendant arranged to purchase
crack cocaine, after which defendant, Taylor, and Landry went inside the drug house. As
defendant smoked the crack cocaine inside the house, Landry, who Singleton described as silent
-311a

and “out of place,” sat motionless on the couch next to Taylor. When Singleton spoke to Landry,
defendant referred to Landry as his “home boy” and stated, “He doesn’t get high, don’t worry
about him.” Defendant purchased and smoked another round of crack cocaine and, at one point,
two males came to the house and gave defendant a gas can. According to Singleton, after
defendant smoked the second round of crack cocaine, he began to “tweak,” which Singleton
described as becoming “very paranoid,” “antsy,” and “amped up.” Landry was last seen alive at
about 10:00 p.m. inside the vacant house with defendant and Taylor. The next day, defendant
used Landry’s Honda to commit a bank robbery. Defendant was armed during that offense,
attempted to kidnap a patron, and threatened to kill the people inside the bank. Two days later,
Landry’s significantly decomposed body was found inside a vacant, burnt-out house at 14711
Maddelein, only a few houses from the location where Landry was last seen alive with defendant
and Taylor. Landry had been shot in the back of the head and the bullet path was consistent with
Landry having been shot while kneeling.
Viewed in a light most favorable to the prosecution, the evidence that (1) defendant, in
conjunction with Taylor, brazenly and forcibly carjacked and kidnapped Landry, (2) defendant
held Landry captive for at least seven hours, during which time he dragged Landry by the neck,
punched Landry, stole money from Landry’s bank account, and took Landry to a drug house
where defendant smoked cracked cocaine to the point of becoming paranoid and amped up, (3)
Landry was last seen alive with defendant and Taylor at the drug house, (4) Landry was shot in
the back of the head, (5) Landry’s body was found on the same street just a few houses from the
location where he was last seen alive with defendant and Taylor, at which time defendant was
described as “antsy,” “paranoid,” and “amped up,” and (6) that the day after Landry was last
seen alive, defendant was still in possession of Landry’s car, which he used to commit another
violent crime while armed with a firearm, was sufficient to enable a rational trier of fact to
determine beyond a reasonable doubt that defendant was the person who killed Landry during
the criminal episode.
Although defendant argues that there were other people at the vacant house who could have
killed Landry, and that Singleton’s testimony was not credible, these challenges are related to the
weight of the evidence rather than its sufficiency. People v Scotts, 80 Mich App 1, 9; 263 NW2d
272 (1977). These same challenges were presented to the jury during opening statement, crossexamination, and closing argument. This Court may not interfere with the jury’s role of
determining issues of weight and credibility. Wolfe, 440 Mich at 514.
B. MALICIOUS INTENT
Defendant also argues that, even if his identity as the shooter was established, there was
insufficient evidence that he acted with malice. “Malice is defined as ‘the intent to kill, the
intent to cause great bodily harm, or the intent to do an act in wanton and willful disregard of the
likelihood that the natural tendency of such behavior is to cause death or great bodily harm.’”
People v Werner, 254 Mich App 528, 531; 659 NW2d 688 (2002) (citation omitted). Malice
may be inferred from facts in evidence, including the use of a dangerous weapon. People v
Bulls, 262 Mich App 618, 627; 687 NW2d 159 (2004). “[M]inimal circumstantial evidence will
suffice to establish the defendant’s state of mind[.]” People v Kanaan, 278 Mich App 594, 622;
751 NW2d 57 (2008).

-412a

Viewed in a light most favorable to the prosecution, the evidence that Landry was
forcibly abducted, held captive for several hours, and shot in the back of his head in a manner
consistent with an execution, after which his body was left inside a vacant, burnt-out house in a
highly drug-infested area, was sufficient to permit a rational trier of fact to infer beyond a
reasonable doubt that defendant possessed the requisite malicious intent for felony murder.
Thus, the evidence was sufficient to support defendant’s conviction of first-degree felony
murder.
II. THE PROSECUTOR’S CONDUCT
Defendant next argues that misconduct by the prosecutor during closing and rebuttal
arguments denied him a fair trial. Because defendant did not object to the prosecutor’s conduct
at trial, this issue is unpreserved and our review is limited to plain error affecting defendant’s
substantial rights. People v Carines, 460 Mich 750, 763; 597 NW2d 130 (1999). This Court
will not reverse if the alleged prejudicial effect of the prosecutor’s conduct could have been
cured by a timely instruction upon request. People v Watson, 245 Mich App 572, 586; 629
NW2d 411 (2001).
A. DENIGRATED DEFENDANT’S CHARACTER
Defendant argues that the prosecutor denigrated his character during closing and rebuttal
arguments by comparing him to the gangster character “Tony Montana” from the movie
Scarface. A prosecutor may not denigrate a defendant with prejudicial or intemperate
comments. People v Bahoda, 448 Mich 261, 283; 531 NW2d 659 (1995). However, prosecutors
have great latitude when arguing at trial. People v Fyda, 288 Mich App 446, 461; 793 NW2d
712 (2010). They may argue the evidence and all reasonable inferences that arise from the
evidence in relationship to their theory of the case, and they need not state their inferences in the
blandest possible language. Bahoda, 448 Mich at 282; People v Dobek, 274 Mich App 58, 66;
732 NW2d 546 (2007).
Relying on Bahoda, 448 Mich at 267, defendant asserts that the prosecutor injected the
inflammatory references to Tony Montana with no apparent justification except to arouse
prejudice. We disagree. During trial, Hassroune, the Walmart carjacking victim, testified that he
observed several tattoos on defendant’s hands while observing defendant holding a gun.
Defendant had the word “Bad” tattooed on his left hand, and the word “Guy” tattooed on his
right hand, and the number “5” was tattooed on each of his ten knuckles. The jury was shown
photographs of defendant’s hands depicting the tattoos. Police Detective Brian McKenzie
testified that he asked defendant about the tattoos as he was photographing defendant’s hands.
Defendant stated that the tattoos “were a reference to the movie Scarface.” Thus, the connection
to “bad guy” Tony Montana from the movie Scarface originated from defendant himself, as
opposed to the prosecutor making a baseless reference. Viewed in this context, the prosecutor’s
remarks do not rise to the level of plain error.
Moreover, a timely objection to the challenged remarks could have cured any perceived
prejudice by obtaining an appropriate cautionary instruction. See Watson, 245 Mich App at 586.
And even though defendant did not object, the trial court instructed the jury that the lawyers’
statements and arguments are not evidence, that the jury was to decide the case based only on the
-513a

properly admitted evidence, and that the jury was to follow the court’s instructions. These
instructions were sufficient to dispel any possible prejudice and to protect defendant’s substantial
rights. People v Long, 246 Mich App 582, 588; 633 NW2d 843 (2001). It is well established
that jurors are presumed to follow their instructions. People v Graves, 458 Mich 476, 486; 581
NW2d 229 (1998).
B. VOUCHING FOR FREDERICK SINGLETON’S CREDIBILITY
Defendant next argues that the prosecutor improperly vouched for the credibility of
Frederick Singleton by stating that “Singleton is a very credible witness.” As defendant
correctly notes, a prosecutor may not vouch for the credibility of a witness by conveying that he
has some special knowledge that the witness is testifying truthfully. People v Knapp, 244 Mich
App 361, 382; 624 NW2d 227 (2001). But a prosecutor is free to argue from the facts and
testimony that a witness is credible or worthy of belief. Dobek, 274 Mich App 66.
Here, the prosecutor did not suggest that he had some special knowledge that Singleton
was credible. Rather, the prosecutor’s remark was made in the context of providing reasons,
grounded in the evidence, why Singleton should be believed. Defense counsel repeatedly
asserted throughout the trial that Singleton was untrustworthy and not credible. In his closing
argument, the prosecutor urged the jury to evaluate Singleton’s testimony and demeanor,
discussed the reliability of his testimony, and argued that there were reasons from the evidence to
conclude that Singleton was credible. The prosecutor noted that Singleton made no effort to
conceal his criminal and drug-related history. He further noted that Singleton could have
exaggerated defendant’s actions by stating that he observed him with a gun and observed him
beating Landry, which clearly would have been more detrimental to the defense. Throughout
closing and rebuttal arguments, the prosecutor explained several connecting events involving
defendant, Landry, and Landry’s vehicle, which supported Singleton’s testimony. Because the
prosecutor’s remark was based on the evidence at trial, there was no plain error. Moreover, in its
final instructions, the trial court instructed the jury that it was the sole judge of witness
credibility, thereby protecting defendant’s substantial rights. Long, 246 Mich App 582, 588;
Graves, 458 Mich at 486.
For these reasons, defendant has not established any basis for relief based on the
prosecutor’s conduct at trial.
III. EFFECTIVE ASSISTANCE OF COUNSEL
Defendant alternatively argues that defense counsel was ineffective for failing to object to
the prosecutor’s comments. Because defendant did not raise an ineffective assistance of counsel
claim in the trial court, our review of this issue is limited to mistakes apparent on the record.
People v Ginther, 390 Mich 436, 443; 212 NW2d 922 (1973); People v Sabin (On Second
Remand), 242 Mich App 656, 658-659; 620 NW2d 19 (2000). Effective assistance of counsel is
presumed and defendant bears a heavy burden of proving otherwise. People v Pickens, 446
Mich 298, 302-303; 521 NW2d 797 (1994); People v Effinger, 212 Mich App 67, 69; 536 NW2d
809 (1995). To establish ineffective assistance of counsel, defendant first must show that
counsel’s performance was below an objective standard of reasonableness. In doing so,
defendant must overcome the strong presumption that counsel’s assistance was sound trial
-614a

strategy. Second, defendant must show that, but for counsel’s deficient performance, it is
reasonably probable that the result of the proceeding would have been different. People v
Armstrong, 490 Mich 281, 289-290; 806 NW2d 676 (2011).
Because the prosecutor’s remarks were not improper, defense counsel’s failure to object
was not objectively unreasonable. Further, because the trial court’s jury instructions were
sufficient to dispel any possible prejudice, defendant cannot demonstrate that there is a
reasonable probability that, but for counsel’s failure to object, the result of the proceeding would
have been different. Consequently, defendant cannot establish a claim of ineffective assistance
of counsel.
IV. DEFENDANT’S SUPPLEMENTAL BRIEF
Defendant has filed a supplemental brief in which he seeks relief from his mandatory life
sentence for his first-degree murder conviction. Defendant was a juvenile at the time he
committed the felony-murder offense. Under Miller v Alabama, 567 US ___; 132 S Ct 2455;
183 L Ed 2d 407 (2012), and People v Carp, ___ Mich App ___; ___NW2d ___ (Docket No.
307758, issued November 15, 2012), lv pending, defendant’s sentence of mandatory life
imprisonment without parole violates the Eighth Amendment ban on “cruel and unusual”
punishment. US Const, Amend VIII. Accordingly, we vacate defendant’s mandatory life
sentence for first-degree murder and remand for resentencing on that offense consistent with
Miller and Carp.1 See Carp, slip op at 24, 40.
Affirmed in part, vacated in part, and remanded for resentencing consistent with this
opinion. We do not retain jurisdiction.
/s/ Kathleen Jansen
/s/ E. Thomas Fitzgerald
/s/ Kirsten Frank Kelly

1

In Carp, slip op at 31-41, this Court provided guidelines for trial courts to follow until the
Legislature adopts new sentencing standards for juvenile offenders. The trial court shall
reconsider defendant’s sentence for first-degree felony murder under those guidelines, rather
than wait until the Legislature acts. Carp, slip op at 31.

-715a

STATE OF MICHIGAN
MACOMB COUNTY CIRCUIT COURT-

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
vs.

Case No. 2009-5244-FC

IHAB MASALMANI,
Defendant.
________________________________________________________/

OPINION AND ORDER
This matter is before the Court following a resentenàing hearing.
I. Factual and Procedural Background
Following a jury trial, defendant was convicted of 18 total charges in three consolidated
cases. Pertinent to the pending matter, the jury convicted defendant of one count of first-degree
felony murder, contrary to MCL 750.31 6(1)(b). The Court sentenced defendant to what was
the time

—

—

at

a mandatory sentence of life without parole on his murder conviction. After the trial

and sentencing, but before his appeal was final, the United States Supreme Court issued Miller v
Alabama, 576 US

____;

132 S Ct 2455; 183 L Ed 2d 407 (2012), holding that a mandatory life

sentence cannot be imposed on a juvenile defendant and that a trial court must instead consider
several factors in deciding whetherto sentence a juvenile to life or to some term of years. Given
the holding in Miller, the Court of Appeals remanded this case forresentencing.
This Court conducted a resentencing hearing on October 21 and 24, 2014. The Court has
carefully considered the arguments presented at this hearing. The Court indicated that if the

APPENDIX D
16a

parties wished to submit sentencing memoranda or briefs, they would be due on December 12,
2014. Defendant submitted an additional sentencing brief, whichthis Court has reviewed.
II. Law
As a preliminary matter, the Court finds that it is expedient to quote the Supreme Courts
decision in Miller at some length, in order to clarify the factors which must be considered by a
trial court in sentencing ajuvenile convicted offirst degree murder:
Mandatory life without parole for a juvenile precludes consideration of his
chronological age and its hallmark features—among them, immaturity,
impetuosity, and failure to appreciate risks and consequences. It prevents taking
into account the family and home environment that surrounds him—and from
which he cannot usually extricate himself—no matter how brutal or
dysfunctional. It neglects the circumstances of the homicide offense, including
the extent of his participation in the conduct and the way familial and peer
pressures may have affected him. Indeed, it ignores that he might have been
charged and convicted of a lesser offense if not for incompetencies associated
with youth—for example, his inability to deal with police officers or prosecutors
(including on a plea agreement) or his incapacity to assist his own attorneys. And
finally, this mandatory punishment disregards the possibility of rehabilitation
even when the circumstances most suggest it.
Miller, 132 S Ct at 2468 (emphasis added).
Ultimately, the United States Supreme Court concluded that the Eighth Amendment
forbids a sentencing scheme that mandates life in prison without the possibility of parole for
juvenile offenders. Id.

The Court declined to consider Jacksons and Millers alternative

argument that the Eighth Amendment requires a categorical ban on life without parole for
juveniles or at least for those 14 years and younger. Id. That said, the Court opined that
appropriate occasions for sentencing juveniles to this harshest possible penalty will be
uncommon. Id. While the Supreme Court did not foreclose a sentencers ability to make that
It is worth noting that the Michigan Supreme Courts decision in People v Carp, 496 Mich 440, 465;
_(2014), lists the factors to be considered under Miller by block quoting this portion of Miller. See supra.
2

17a

NW2d

judgment in homicide cases, the Court required the sentencer to take into account how children
are different, and how those differences counsel against irrevocably sentencing them to a lifetime
in prison. Id.
III. Analysis
A. Chronological Age and Hallmark Features
With the relevant law in mind, the Court shall now discuss each ofthe factors set forth in

Miller in turn, as they apply to the facts ofthis case. The first factor is defendants chronological
age and its hallmark features. Defendant was 17 years and eight months old at the time of his

offense.

Had he committed his offense four months later, life without parole would be

mandatory and resentencing would be impermissible. Defendants own expert witness, Dr.
Daniel Keating, a neuroscientist and expert in adolescent brain development, testified that there
would be no known reasons to assume significant difference between the rehabilitative prospects
between 17 and 18. Trans. of 10/21/14 at 43 (Keating).
The

Court must also consider the hallmark features of the defendants age, including
immaturity, impetuosity, and failure to appreciate risks. t)r. Keating testified that the limbic
system which serves as an arousal system,.
—

.

.

an incentive system, and a reward system

—

is

much more active during ones teenage years than as an adult. Id. at 20-2 1 (Keating). Dr.
Keating further testified that the prefrontal cortex governs executive function and is designed

as a brake on the [limbic] system but it develops much more slowly than the limbic system. Id.
at 23 (Keating). He explained that there is a developmental maturity .mismatch between the
limbic system and the prefrontal cortex. Id. at 24-25 (Keating). He explained that [t}he
prefrontal cortex.

.

.

doesnt reach full maturity until the mid-20s. Id. at 23 (Keating). As a

result, teenagers tend to engage in generally reckless behavior. Id. at 28 (Keating).
3

18a

Defendants guardian ad litem opined that in terms of maturity, defendant was probably
in the middle out ofthe 5,000 to 8,000 children he had represented over the years. Id. at 108109 (Ladd). However, the guardian ad litem opined that [t]hats not very mature compared to
the general population. Id. at 109 (Ladd).
In light of the foregoing, the Court fmds that defendants chronological age and its
hallmark features do not justify sentencing defendant differently than an 18 year old criminal

defendant. Miller dealt with juvenile defendants who were a mere 14 years old at the time of
their

offenses

—

a far cry from this case. Defendant was only 4 months away from being an

adult. Moreover, while the testimony established that the prefrontal cortex continues to develop
into ones mid-twenties, the Court is not free to take this developmental disconnect into
consideration when a criminal defendant is over 18. To the contrary, the Court is required to
impose mandatory life without parole in first degree murder cases for defendants who are only 4
months older than defendant was when he committed his crimes. There was nothing in the
testimony or evidence presented which suggests that treating defendant differently from an 18
year old would be warranted in this case. Upon careful consideration, the Court fmds that this
factor favors imposing a sentence of life without the possibility of parole.
B. Family and Home Environment
There was essentially uncontroverted evidence that defendants family and home
environment was terrible. Defendant came to the United States from Lebanon as a child and
initially lived with relatives in California, but there were problems with mistreatment there and
the relatives no longer wanted to or should care for [him]. See Trans. of 10/21/14 at 105
(Ladd). He and his sister were staying with an aunt in Dearborn and here were allegations of
physical abuse and sexual abuse and neglect involving both of the children. Id. at 104 (Ladd).
4

19a

-

Defendant first came into thç foster care system based on an abuse and neglect case. Id. at 103
(Ladd). According to his case worker, there was definitely a language barrier.

.

.

.

Id. at 83

(Keller). However, child-placing agencies do not consider~thecultural and language needs of the
child, and are oftentimes prohibited from doing that under the federal law. Trans. of 10/24/14

at 26 (Vandervort).
Defendants guardian ad litem estimatedthat he wasin at leastten different foster homes,
and opined that progressively it made it worse and worse for him. Trans. of 10/21/14 at 112
(Ladd).

Defendant was smoking marijuana with one foster mother, and witnessing the

foster mother having inappropriate sexual actions in front of him. Id. at 87 (Keller). At some
point, defendant stopped developing attachments to others.-

Trans. of 10/24/14 at 23

(Vandervort).
Defendant was aggressive towards peers and towards teachers. He would walk out of
class. Fight. Trans. of 10/21/14 at 90 (Keller). His involvement with the juvenile justice
system began in 2008, with assault and battery and a drug offense.

Id. at 113 (Ladd).

Defendants guardian ad litem estimated that there were at least five juvenile petitions

concerning defendant during periods that he was AWOL from his placements. Id. at 132 (Ladd).
His guardian ad litern opined that defendant became more and more oriented towards being

with kids on the street and [that was] the only place.

.

.

where he felt that he belonged. Id. at

112 (Ladd). It is also worth noting that defendant was diagnosed with ADHD, depression, and
pediatric seizures. Id. at 85 (Keller). There was also testimony that defendant was diagnosed
with epilepsy. Trans. of 10/24/14 at 18 (Vandervort).
Given this testimony, there is no question that defendants family and home
environment was terrible. Defendant lacked stability, was abused, and eventually stopped
5

20a

forming attachments with others altogether. As such, this factor likely weighs in defendants
favor.
C. Circumstances of the Homicide Offense,

Extent of Participation, and Familial and Peer Pressure
The next factor concerns the circumstances of the homicide offense, the extent of

defendants participation, and familial and peer pressure. Although testimony regarding the
homicide offense was not specifically presented during the resentencing hearing, the
circumstances of the offense were established during the trial in this matter. Defendant and his
co-defendant, Robert Taylor, abducted Matthew Landry at gunpoint outside a sandwich shop in
Eastpointe around 2:30 p.m. on August 9, 2009. Defendant used Landrys debit card to make
over $300 in withdrawals, drove to a gas station on the east side of Detroit, and went shopping
for clothes at Eastland Mall. Around 9:30 p.m., Taylor drove defendant and Landry to a drug
house in Detroit. Defendant purchased crack cocaine, and smoked it on the couch next to
Landry. Landry was last seen alive at 10:00 p.m. Sometime thereafter, defendant shot Landry in
the back of the head in a vacant house.

Over the next several days, defendant committed

additional violent crimes, employing Landrys vehicle as a getaway car. There was no evidence
that any ofdefendants criminal activity was precipitated by peer or family pressure.
Accordingly, this factor weighs heavily in favor of finding that a sentence of life without
the possibility of parole is appropriate.

Defendant had numerous opportunities to abandon his

plan, and instead drove with his co-defendant and Matthew Landry around town for hours before
killing Landry in cold blood. There is nothing in the facts and circumstances ofthe crime which
would warrant anything less than life in prison without the possibility ofparole.
D. Incapacities of Youth
6

21a

-

$

Next, there was no evidence that The incapacities of youth caused defendant to be unable
to

participate in his defense. Nor is there any evidence that defendant implicated himself due to

youthful incapacities.

As such, this factor favors sentencing defendant to life without the

possibility of parole.
E. Possibifity of Rehabilitation
-

it
zero

The fmal factor to consider is the possibility of rehabilitation. Dr. Keating testified that

is very difficult to predict from this point in time out to the distant future whether theres a
or non-zero prospect of rehabilitation. Trans. of 10/21/14 at 70 (Keating). Nevertheless,
he acknowledged that the rehabilitation challenges are certainly higher in the case ofajuvenile
who is capable of pulling a trigger. Id. at 65 (Keating). Moreover, patterns of behavior are
predictive. Id. at 55 (Keating). In short, the worse the circumstances, the more likely it is for.

nonresilience [i.e., no rehabilitation] to be the case. Id. at 56 (Keating).
Dr. Danuloff, a clinical psychologist who evaluated defendant, testified that he cannot
predict a future outcome with respect to defendant. Trans. of 10/24/14 at 55 (Danuloff). He
acknowledged that defendant was basically unsocialized, unattached, unattached in any kind of

substantial way human relationships, and viewed other people as objects to meet his needs or
not at the time ofhis offense. Id. at 47 (Danuloff). He opined that defendant may have been
irreparably corrupt, but got lucky. Id. at 57 (Danuloff). He testified that defendant had many
misconducts towards the beginning of his incarceration, but that the last misconduct was in

August of 2013. Id. at 51 (Danuloff). He testified that circumstances since defendants
incarceration

—

specifically, solitary confinement and the Miller decision

—

have caused

defendant to begin to conceive ofthe idea ofhope. Id. at 48-49 (Danuloff). This has led to his

7

22a

$

reading books and beginning to have the capacity to self-explore, although Dr. Danuloff
stressed that [t]his is very primitive. This is embryonic.

.

.

.

Id. at 50 (Danuloff).

Dr. Danuloff also testified concerning several conversations he has had with defendant
since his incarceration. For instance, he testified that defendant told him that [elven a Godly
person can punish people who bring harm to them. Even God did this. Id. at 53 (Danuloff).
Danulofffurther testified that he asked defendant whether his crime was righteous or evil, and
defendant responded well, it was a little bit of both..

.

.

And what he said was, well, I didnt

have any choice. Id. at 54 (Danuloft).

-

Having carefully reviewed all ofthe testimony and exhibits in this matter, the Court fmds
that this factor favors a sentence oflife without the possibility ofparole. The very difficulty of
-

defendants upbringing

—

the only factor which could be said to weigh in favor of an

indetenninate sentence also suggests that defendants prospects for rehabilitation are minimal.
—

None of the experts presented by defendant were ready to testify that defendant has undergone
anything more than the first embryonic stirrings of moral sensibility. The Court finds it rather
telling that defendant only began to avoid misconducts once the possibility of parole became a
reality with the Supreme Courts decision in Miller. Moreover, the Court fmds it incredibly
troubling that defendant continues to believe that his cold-blooded murder of Matthew Landry
was partially righteous. Finally, the Court notes that even if defendant is experiencing the
embryonic development of a rudimentary moral sensibility, it is implausible that he will
experience full rehabilitation without intensive professional assistance

—

assistance which he is

very unlikely to receive in prison. —For all ofthese reasons, the Court concludes that defendants
prospects for rehabilitation are negligible.

IV. Summary of the Courts Decision
8

23a

The Court has carefully considered the various factors set forth in Supreme Courts
decision in Miller. The Court has reviewed the testimony presented at the resentencing hearing,

and the exhibits presented. Having done so, the Court is satisfied that defendants case presents
precisely what the Supreme Court characterized as the rare juvenile offender whose crime
reflects irreparable corruption. Roper v Simmons, 543 US 551, 573; 125 S Ct 1183; 161 L Ed
2d 1 (2004). Based on the foregoing, the Court fmds that defendant is properly sentenced to life

in

prison without the possibility ofparole.

V. Conclusion
For the reasons set forth above, the Court finds that defendant is properly sentenced to
life without the possibility of parole. Pursuant to MCR 2.602(A)(3), this Opinion and Order
resolves the last pending claim and closes this case.
IT IS SO ORDERED.

-

Hon. Diane M. Druzinski, Circuit Court Judge
Date: January 6, 2015

DIANE M. DRUZINSKI

DMD/ac
cc:

William L. Cataldo, Asst. Prosecuting Attorney
Joshua D. Abbott, Asst. Prosecuting Attorney
Valerie R. Newman, Esq.

CIRCUIT JUDGE

JAN ~ 8
A

(.4~1

~

-

$AFtM$LLA $A~AUSH~
S~UNTY€L~ER~.

~

9

24a

~

~

STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
September 22, 2016

Plaintiff-Appellee,
v

No. 325662
Macomb Circuit Court
LC No. 2009-005244-FC

IHAB MASALMANI,
Defendant-Appellant.
Before: BORRELLO, P.J., and MARKEY and RIORDAN, JJ.
PER CURIAM.

Defendant was convicted at a jury trial of first-degree felony murder, MCL
750.316(1)(b), carjacking, MCL 750.529a, conspiracy to commit carjacking, MCL 750.529a;
MCL 750.157a, kidnapping, MCL 750.349, conspiracy to commit kidnapping, MCL 750.349;
MCL 750.157a, larceny from the person, MCL 750.357, and possession of a firearm during the
commission of a felony (felony-firearm), MCL 750.227b. Defendant was originally sentenced to
mandatory life imprisonment without the possibility of parole for the first-degree felony murder
conviction, 25 to 50 years’ imprisonment each for the carjacking, conspiracy to commit
carjacking, kidnapping, and conspiracy to commit kidnapping convictions, 5 to 10 years’
imprisonment for the larceny from the person conviction, and two years’ imprisonment for the
felony-firearm conviction.1 On defendant’s appeal by right, this Court affirmed defendant’s
convictions but vacated his mandatory sentence of life imprisonment without the possibility of
parole for the first-degree felony murder conviction and remanded for resentencing on that
offense in accordance with Miller v Alabama, 567 US ___; 132 S Ct 2455; 183 L Ed 2d 407
(2012). People v Masalmani, unpublished opinion per curiam of the Court of Appeals, issued
March 19, 2013 (Docket Nos. 301376, 301377, 301378), p 7. The trial court on remand
resentenced defendant to life imprisonment without the possibility of parole for the first-degree

1

Defendant was also convicted of and sentenced for numerous other charges in two other cases
that were consolidated for trial with the instant case, and this Court affirmed those convictions
and sentences. See People v Masalmani, unpublished opinion per curiam of the Court of
Appeals, issued March 19, 2013 (Docket Nos. 301376, 301377, 301378), pp 1-2. Those two
cases that were consolidated with the instant case are not presently before this Court, and we
therefore do not list those convictions and sentences.
-1APPENDIX E
25a

felony murder conviction. Defendant now appeals by right the sentence imposed on remand.
We affirm.
Defendant argues that the trial court erred in imposing a life without parole sentence on
remand. We disagree. “[T]he appropriate standard of review in cases where a judge imposes a
sentence of life without parole on a juvenile defendant is a common three-fold standard . . . .”
People v Hyatt, ___ Mich App ___, ___; ___ NW2d ___ (2016) (Docket No. 325741); slip op at
25. The trial court’s findings of fact are reviewed for clear error, questions of law are reviewed
de novo, and the court’s ultimate determination as to an appropriate sentence is reviewed for an
abuse of discretion. Id.
In Miller, 132 S Ct at 2460, the United States Supreme Court held that a sentence of
“mandatory life without parole for those under the age of 18 at the time of their crimes violates
the Eighth Amendment’s prohibition on ‘cruel and unusual punishments.’ ”
Mandatory life without parole for a juvenile precludes consideration of his
chronological age and its hallmark features—among them, immaturity,
impetuosity, and failure to appreciate risks and consequences. It prevents taking
into account the family and home environment that surrounds him—and from
which he cannot usually extricate himself—no matter how brutal or
dysfunctional. It neglects the circumstances of the homicide offense, including
the extent of his participation in the conduct and the way familial and peer
pressures may have affected him. Indeed, it ignores that he might have been
charged and convicted of a lesser offense if not for incompetencies associated
with youth—for example, his inability to deal with police officers or prosecutors
(including on a plea agreement) or his incapacity to assist his own attorneys. . . .
And finally, this mandatory punishment disregards the possibility of rehabilitation
even when the circumstances most suggest it. [Id. at 2468.]
“By making youth (and all that accompanies it) irrelevant to imposition of that harshest prison
sentence, such a scheme poses too great a risk of disproportionate punishment.” Id. at 2469.
The Supreme Court declined to consider the defendants’ arguments for a categorical prohibition
of life without parole sentences for juveniles but stated that “appropriate occasions for
sentencing juveniles to this harshest possible penalty will be uncommon.” Id. The Supreme
Court noted that it was difficult to distinguish “at this early age between the juvenile offender
whose crimes reflects unfortunate yet transient immaturity, and the rare juvenile offender whose
crime reflects irreparable corruption.” Id. (quotation marks and citations omitted). “Although
we do not foreclose a sentencer’s ability to make that judgment in homicide cases, we require it
to take into account how children are different, and how those differences counsel against
irrevocably sentencing them to a lifetime in prison.” Id.
Following the issuance of Miller, our Legislature enacted MCL 769.25, which became
effective on March 4, 2014. See 2014 PA 22. The statute applies to a defendant who was less
than 18 years old at the time he or she committed the offense. MCL 769.25(1). The prosecutor
may file a motion to sentence a defendant convicted of first-degree murder to life without parole.
MCL 769.25(2) and (3). If the prosecutor files such a motion in conformance with the statutory
requirements, the trial court must conduct a hearing at which the court considers the factors listed
-226a

in Miller and any other relevant criteria, including the defendant’s prison record. MCL
769.25(6). At the hearing, the trial court must specify the aggravating and mitigating
circumstances and the reasons for the sentence imposed; the court may consider evidence
presented at trial and evidence presented at the sentencing hearing. MCL 769.25(7). If the trial
court declines to impose a life without parole sentence, the court must impose a sentence in
which the maximum term is at least 60 years and the minimum term is between 25 and 40 years.
MCL 769.25(9).
Although the trial court’s ultimate determination of the appropriate sentence is reviewed
for an abuse of discretion, “the imposition of a juvenile life-without-parole sentence requires a
heightened degree of scrutiny regarding whether a life-without-parole sentence is proportionate
to a particular juvenile offender, and even under this deferential standard, an appellate court
should view such a sentence as inherently suspect.” Hyatt, ___ Mich App at ___; slip op at 26.
“[A]ppellate review of a juvenile life-without-parole sentence cannot be a mere rubber-stamping
of the penalty handed out by the sentencing court.” Id. Although such a sentence is not
presumed to be unconstitutional, a searching inquiry into the record must be undertaken with
“the understanding that, more likely than not, the sentence imposed is disproportionate.” Id. A
sentencing court abuses its discretion if it “ ‘fails to consider a relevant factor that should have
received significant weight, gives significant weight to an improper or irrelevant factor, or
considers only appropriate factors but nevertheless commits a clear error of judgment by arriving
at a sentence that lies outside the limited range of choice dictated by the facts of the case.’ ” Id.
at 27, quoting United States v Haack, 403 F3d 997, 1004 (CA 8, 2005).
In Hyatt, ___ Mich App at ___; slip op at 27-28, this Court concluded that the trial court
had failed to adhere to the directives in Miller and its progeny “about the rarity with which a lifewithout-parole sentence should be imposed.” Although the trial court in Hyatt focused on the
Miller factors, “the court gave no credence to Miller’s repeated warnings that a life-withoutparole sentence should only be imposed on the rare or uncommon juvenile offender.” Hyatt, ___
Mich App at ___; slip op at 28. Moreover, the trial court in Hyatt had emphasized a
psychologist’s opinion that the defendant’s prognosis for change in the next five years was poor;
the focus on a five-year period was inconsistent with the holding in Miller “that a life-withoutparole sentence will be proportionate for the juvenile who is irreparably corrupt and incapable of
change – not one who is incapable of change within the next five years.” Id. This Court
therefore remanded the case for resentencing and directed the trial court “to not only consider the
Miller factors, but to decide whether this individual is the truly rare juvenile mentioned in Miller
who is incorrigible and incapable of reform.” Id.
In the present case, the trial court did not err in analyzing each of the Miller factors and
finding that defendant is the rare juvenile offender who is irreparably corrupt. The trial court
expressed full appreciation of the rarity of the circumstances in which a juvenile offender will be
deemed incapable of reformation. The court quoted and discussed relevant portions of the
holding and analysis in Miller, and noted the admonition in Miller that appropriate occasions to
sentence juveniles to life without parole will be uncommon. Then, after analyzing the Miller
factors, the trial court concluded “that defendant’s case presents precisely what the Supreme
Court characterized as the ‘rare juvenile offender whose crime reflects irreparable corruption.’ ”
Accordingly, the trial court accorded appropriate recognition and made pertinent findings
-327a

regarding the rarity of circumstances warranting a life without parole sentence for a juvenile
offender.
Moreover, the trial court’s conclusion that defendant is the rare juvenile offender for
whom a life without parole sentence is warranted was supported by the court’s accurate analysis
of the Miller factors. We will now discuss each of the Miller factors.
The first factor concerns defendant’s age and its hallmark features. Miller, 132 S Ct at
2468. Defendant was 17 years and 8 months old when he committed the offenses (in marked
contrast to the 14-year-old defendants in Miller, 132 S Ct at 24602). The record refutes any
claim that the hallmark features of adolescence identified in Miller, 132 S Ct at 2468, including
immaturity, impetuosity, and a failure to appreciate risks and consequences, played any role in
defendant’s crimes. This was not, as in Miller, 132 S Ct at 2465, a mere botched robbery that
turned into a killing. Defendant engaged in an unusually horrific, disturbing, and violent crime
spree that extended over a three-day period. Defendant, aided by codefendant Robert Taylor,
brazenly and forcibly kidnapped and carjacked Matt Landry in broad daylight outside a
restaurant, punched and dragged him by the neck, drove his car, held him captive for at least
seven hours, used his ATM card to steal his money and buy numerous items. He then took
Landry to a drug house where defendant bought and consumed crack cocaine. Finally, defendant
took Landry to a nearby vacant house where he killed him in a brutal execution style by shooting
him in the back of the head. Defendant then committed additional violent crimes over the next
two days, including robbing a bank and its customers, kidnapping a bank customer, and another
carjacking. Landry’s significantly decomposed body was found two days later inside the vacant
burned out house where he had been shot in the back of the head. From the position of the body,
it appeared that Landry had been kneeling at the time of his murder. Defendant’s criminal
actions over an extended period of time are not reflective of a merely immature or impetuous
adolescent who fails to appreciate risks and consequences.
Defendant relies on testimony by Dr. Daniel P. Keating, defendant’s expert in cognitive
and brain development in adolescents, about a developmental maturity mismatch in which an
adolescent’s limbic system matures more quickly than the prefrontal cortex. This testimony has
minimal bearing on these facts, and Dr. Keating did not meet or interview defendant. He was

2

The Supreme Court in Miller indicated that it is appropriate to take into account the differences
between juveniles of different ages. In particular, when explaining the flaws of a scheme of
mandatory life imprisonment without parole for juveniles, the Miller Court said: “Under these
schemes, every juvenile will receive the same sentence as every other—the 17-year-old and the
14-year-old, the shooter and the accomplice, the child from a stable household and the child from
a chaotic and abusive one.” Miller, 132 S Ct at 2467-2468. The Miller majority criticized the
dissents in Miller for repeatedly referring to 17-year-olds who have committed heinous offenses
and comparing those defendants to the 14-year-old defendants in Miller. The Miller majority
explained: “Our holding requires factfinders to attend to exactly such circumstances – to take
into account the differences among defendants and crimes. By contrast, the sentencing schemes
that the dissents find permissible altogether preclude considering these factors.” Id. at 2469 n 8.
-428a

only addressing generic brain science. Defendant’s reliance on Dr. Keating’s testimony that the
prefrontal cortex is not fully developed until a person reaches his or her middle twenties fails to
consider that an offender who is only four months older than defendant is subject to a mandatory
life without parole sentence. Dr. Keating acknowledged that a person who is 17 years and 8
months old is not significantly different in brain development from an 18-year-old person. Also,
William Ladd, who was defendant’s lawyer guardian ad litem (LGAL) for many years, testified
that defendant fell within the middle range in terms of maturity of the 5,000 to 8,000 children
with whom Ladd had worked in his 30 years of experience. In sum, defendant’s chronological
age and its hallmark features do not weigh in favor of mitigation.
The next factor concerns defendant’s family and home environment. Miller, 132 S Ct at
2468. The trial court correctly noted that there was uncontroverted testimony that defendant had
a terrible family and home environment, having been subjected to abuse and neglect by relatives
in the United States after having been sent here from Lebanon as a child. Defendant was placed
in at least 10 foster homes. He was diagnosed with ADHD, depression, and pediatric seizures.
Services meant to address his special needs were not continuously provided. Further, cultural
and linguistic considerations were not adequately taken into account. As defendant was moved
from one foster care placement to another, he lost the ability to form attachments with parental
figures and became more oriented toward being out on the streets, eventually becoming involved
in gangs. In school, defendant struggled academically and began getting into fights and
exhibiting disrespect to his teachers. Defendant had juvenile delinquency cases for assault and
drug offenses; he pleaded guilty to misdemeanors and became a delinquent court ward. In light
of the terrible circumstances of defendant’s family and home environment, the trial court
properly weighed this factor in favor of defendant and against a life without parole sentence.
The next factor is “the circumstances of the homicide offense, including the extent of
[defendant’s] participation in the conduct and the way familial and peer pressures may have
affected him.” Miller, 132 S Ct at 2468. As discussed, defendant actively participated in the
crimes. There is no indication that any family or peer pressure led defendant to commit the
crimes. Defendant held Landry captive for at least seven hours, used his ATM card to obtain
Landry’s money, purchased multiple items with that money, took Landry to a drug house where
defendant consumed crack cocaine, and then took Landry to a nearby vacant house where
defendant shot Landry in the back of the head in a cold-blooded execution-style murder.
Defendant then committed additional violent crimes over the next two days and used Landry’s
vehicle as a getaway car. Defendant had more than ample opportunity to abandon his criminal
acts during the many hours that he held Landry captive and used his money before killing him in
a brutal fashion. Given defendant’s extensive participation in these disturbing criminal acts and
the absence of any family or peer pressure on defendant, the trial court did not err in heavily
weighing this factor against defendant and concluding that it did not favor mitigation.
The next Miller factor is whether defendant “might have been charged and convicted of a
lesser offense if not for incompetencies associated with youth—for example, his inability to deal
with police officers or prosecutors (including on a plea agreement) or his incapacity to assist his
own attorneys.” Miller, 132 S Ct at 2468. The trial court correctly noted that there is no
evidence of any incapacities of youth that rendered defendant unable to participate in his defense
or that led him to implicate himself. This factor therefore did not weigh in favor of mitigation.
-529a

The final factor is the possibility of rehabilitation suggested by the circumstances.
Miller, 132 S Ct at 2468. Dr. Keating explained that a person’s prospects for rehabilitation are
associated with his or her developmental history. Negative experiences and behaviors during a
person’s developmental period increase the probability that the person will not succeed in rising
above difficulties. Some people do not change; the worse the circumstances, the more likely that
the person will not overcome their circumstances. Greater rehabilitation challenges exist for
someone who purposely shot another.
Dr. Lyle Danuloff, a clinical psychologist who met with defendant for more than four
hours over three different visits, explained that when defendant committed the crimes in this
case, he was unattached in human relationships, living on the streets, and living an amoral life
“with the sense of what do I need and what do I need to do to get my needs met. He lived in the
moment and did not live with any sense of right and wrong.” When defendant committed the
crimes, he was AWOL from his last placement, running the streets with other young people,
consuming marijuana, selling drugs, and lacking any personhood in terms of relating to other
people as fellow human beings rather than objects to meet his needs. Dr. Danuloff thinks that
defendant has experienced turning points in his development. Defendant “got lucky” because he
was placed in segregation where he is alone in his cell 23 hours a day and because he learned
about the Miller decision, so he now has a hope of someday obtaining a parole hearing. While
alone in his cell, defendant began to read the Bible and other books to learn how people treat one
another and the difference between righteousness and evil. Dr. Danuloff opined that the
possibility of a parole hearing motivated defendant to begin to explore himself and try to
understand who he is, what he did, and why he did it. In Dr. Danuloff’s view, defendant is
beginning to have a very primitive and embryonic capacity to explore himself and ask questions
about himself. Defendant stopped getting misconduct tickets in prison. Defendant also became
a prison barber and a representative of his prison housing unit.
Dr. Danuloff testified that defendant said that “[e]ven a Godly person can punish people
who bring harm to them. Even God did this.” When asked whether what he did in this case was
righteous or evil, defendant said that “it was a little bit of both.” Defendant explained, “[W]ell, I
didn’t have any choice. It’s how I was, it’s how I lived, it’s how I behaved.” Defendant said, “I
couldn’t think of anything else to do. I was in a situation and I had to get—and I had to take care
of the situation I was in.” When asked how his actions were evil, defendant said that he hurt
people badly, which indicates to Dr. Danuloff “the embryonic development of personhood.” Dr.
Danuloff thinks defendant is in the rudimentary stages of growing up by using people like Jesus
and Muhammad as teachers and internalizing what he reads. Dr. Danuloff indicated that there is
no way for a psychologist to predict how a person will behave in the future.
On cross-examination, Dr. Danuloff acknowledged that people normally cannot fix
psychological problems by themselves and that psychotherapy is needed. Psychotherapy
requires introspection and a willingness to work on oneself. Dr. Danuloff agreed that he saw
defendant in the structured prison setting years after the crimes were committed and that he
cannot say what defendant would be like if released.
The trial court correctly concluded that this factor did not favor mitigation. Although the
difficulty of defendant’s upbringing weighs in his favor, it also indicates that he faces significant
challenges in improving himself, as reflected in the testimony of Dr. Keating and Dr. Danuloff.
-630a

We share the trial court’s concern about defendant’s comments to Dr. Danuloff reflecting that
defendant thinks his actions in this case were partially righteous and that he did not have a
choice. As discussed, defendant had more than ample opportunity to abandon his criminal
activity in the many hours that he held Landry captive before brutally killing him. Hence,
defendant’s abhorrent belief that his actions were partially righteous and that he had no choice
but to behave as he did, despite the horrific nature of his criminal acts committed over an
extended period of time, indicates that defendant’s prospects for rehabilitation are extremely
remote or nonexistent. Defendant continued engaging in assaultive behavior after being
incarcerated for the present offenses. He assaulted or attempted to assault staff personnel at the
Macomb County Jail several times. After being transferred to prison, defendant incurred 23
misconduct tickets. Four of the tickets were for fighting, two were for engaging in threatening
behavior, two were for possessing a weapon, one was for assault and battery of another prisoner,
and another one was for assault resulting in serious physical injury to another prisoner. The fact
that defendant stopped misbehaving in prison after learning of Miller does not necessarily reflect
a rudimentary moral awakening, as Dr. Danuloff claimed. Defendant’s improved behavior is just
as, if not more, likely to reflect manipulation designed to obtain a lesser sentence, as the trial
court found. This conclusion is also consistent with defendant’s earlier diagnosis of antisocial
personality disorder and the manipulative behaviors associated with that condition. Dr. Danuloff
testified that persons diagnosed with antisocial personality disorder do not generally participate
in psychotherapy unless mandated to do so and that the prognosis for such mandatory treatment
is not positive. Moreover, even if defendant is beginning to exhibit a very rudimentary or
embryonic capacity for self-exploration, we note Dr. Danuloff’s testimony supports the trial
court’s conclusion that defendant is unlikely to make significant progress without intensive
professional assistance, and no basis exists to conclude that he will receive intensive professional
assistance in prison and achieve full rehabilitation. The trial court properly concluded that
defendant’s prospects for rehabilitation are negligible.
Overall, our review of the record indicates that the trial court accurately analyzed each of
the Miller factors and correctly concluded that defendant is the rare juvenile offender whose
crime reflects irreparable corruption. The trial court therefore did not abuse its discretion in
determining that defendant should be sentenced to life imprisonment without parole.
Defendant next argues that the trial court erred in failing to empanel a jury at the Miller
resentencing hearing. We disagree. This issue presents a question of law, which is reviewed de
novo. Hyatt, ___ Mich App at ___; slip op at 2. Because defendant failed to preserve this issue
by raising it below, People v Metamora Water Serv, Inc, 276 Mich App 376, 382; 741 NW2d 61
(2007), our review is for plain error affecting substantial rights, People v Carines, 460 Mich 750,
763-764; 597 NW2d 130 (1999).
In People v Skinner, 312 Mich App 15, 20; 877 NW2d 482 (2015), rejected by Hyatt, ___
Mich App at ___; slip op at 21, the majority of a panel of this Court held “that the Sixth
Amendment mandates that juveniles convicted of homicide who face the possibility of a
sentence of life without the possibility of parole have a right to have their sentences determined
by a jury.” In People v Perkins, ___ Mich App ___, ___; ___ NW2d ___ (2016) (Docket Nos.
323454, 323876, 325741); vacated in part by People v Perkins, unpublished order of the Court of
Appeals, entered February 12, 2016 (Docket Nos. 323454, 323876, 325741), and superseded in
part by Hyatt, ___ Mich App at ___; slip op at 1, 21, another panel of this Court followed
-731a

Skinner only because it was obligated to do so, MCR 7.215(J)(2), and stated its opinion that
Skinner was wrongly decided. In Hyatt, ___ Mich App at ___; slip op at 21, a conflict panel of
this Court3 rejected the analysis in Skinner and expressed agreement with the original panel in
Perkins. The Hyatt conflict panel summarized its analysis as follows:
In sum, we find that Miller’s individualized sentencing mandate, as
incorporated by MCL 769.25, does not run afoul of Sixth Amendment precedent.
A judge, not a jury, is to make the determination of whether to impose a lifewithout-parole sentence or a term-of-years sentence under MCL 769.25.
Accordingly, we reject the result reached in Skinner and conclude that the prior
panel in this case was correct in its analysis. [Hyatt, ___ Mich App at ___; slip op
at 21.]
Therefore, the trial court in this case did not err by failing to empanel a jury at the Miller hearing
because the conflict panel in Hyatt rejected the portion of Skinner on which defendant relies.
We affirm.
/s/ Jane E. Markey
/s/ Michael J. Riordan

3

Before the issuance of the conflict panel’s opinion in Hyatt, the conflict panel issued an order
vacating an earlier order that had consolidated Perkins, Hyatt, and another case, so that only
Hyatt proceeded before the conflict panel. See People v Perkins, unpublished order of the Court
of Appeals, issued April 26, 2016 (Docket Nos. 323454, 323876, 325741). That is why the
conflict panel’s opinion was decided under a different case name.
-832a

Order

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

April 5, 2019

Chief Justice

David F. Viviano,

154773 & (64)

Chief Justice Pro Tem

Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

SC: 154773
COA: 325662
Macomb CC: 2009-005244-FC

IHAB MASALMANI,
Defendant-Appellant.
_____________________________________/
By order of May 2, 2017, the application for leave to appeal the September 22,
2016 judgment of the Court of Appeals was held in abeyance pending the decisions in
People v Skinner (Docket No. 152448) and People v Hyatt (Docket No. 153081). On
order of the Court, the cases having been decided on June 20, 2018, 502 Mich 89 (2018),
the application is again considered, and it is GRANTED, limited to the issue whether, in
exercising its discretion to impose a sentence of life without parole (LWOP), the trial
court properly considered the “factors listed in Miller v Alabama, [567 US 460] (2012)”
as potentially mitigating circumstances. MCL 769.25(6). See also Skinner, 502 Mich at
113-116. In particular, the parties shall address: (1) which party, if any, bears the burden
of proof of showing that a Miller factor does or does not suggest a LWOP sentence;
(2) whether the sentencing court gave proper consideration to the defendant’s
“chronological age and its hallmark features,” Miller, 567 US at 477-478, by focusing on
his proximity to the bright line age of 18 rather than his individual characteristics; and
(3) whether the court properly considered the defendant’s family and home environment,
which the court characterized as “terrible,” and the lack of available treatment programs
in the Department of Corrections as weighing against his potential for rehabilitation. The
time allowed for oral argument shall be 20 minutes for each side. MCR 7.314(B)(1).
The motion to remand is DENIED.
The Criminal Defense Attorneys of Michigan and the Prosecuting Attorneys
Association of Michigan are invited to file briefs amicus curiae. Other persons or groups
interested in the determination of the issues presented in this case may move the Court
for permission to file briefs amicus curiae.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
April 5, 2019
t0329

APPENDIX F
33a

Clerk

Justices

